Docket No. 20-

In the
Supreme Court of the United States

 

Artem M. Joukov,
Petitioner,
¥.
Office of State Attorney Second Judicial Circuit of Florida,

Respondent.

CERTIFICATE OF SERVICE

I, Artem M. Joukov, pro se litigant and counsel of record representing myself,
hereby certify that on this 2nd day of November, 2020, caused one copy of the
Petition for Writ of Certiorari to be served by mail on the following counsel: Michael
P. Spellman and Mitchell J. Herring, 123 N. Monroe Street, Tallahassee FL, 32301,
Phone No.: 850-205-1996, E-Mail Addresses: mspellman@sniffenlaw.com and
mherring@sniffenlaw.com.

Artem M. 7d =

Pro se Petitioner and Counsel of Record
1431 West 37th Street, Unit 2A

Los Angeles, California 90018
Telephone: 251-223-2702

Email: amjoukov@ua.edu
